<html>
<title> - CUTTING SPENDING AND CONSOLIDATING FEDERAL OFFICE SPACE: GSA'S CAPITAL INVESTMENT AND LEASING PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   CUTTING SPENDING AND CONSOLIDATING
                  FEDERAL OFFICE SPACE: GSA'S CAPITAL
                     INVESTMENT AND LEASING PROGRAM

=======================================================================

                                (112-14)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


               Available online at: http://www.fdsys.gov/



                  U.S. GOVERNMENT PRINTING OFFICE
65-449                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2047504f604355535448454c500e434f4d0e">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman

TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,           Columbia
Arkansas,                            HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
STEPHEN LEE FINCHER, Tennessee         (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Peck, Robert, Commissioner, Public Buildings Service, U.S. 
  General Services Administration................................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Norton, Hon. Eleanor Holmes, of the District of Columbia.........    29

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Peck, Robert.....................................................    32
[GRAPHIC] [TIFF OMITTED] T5449.001

[GRAPHIC] [TIFF OMITTED] T5449.002

[GRAPHIC] [TIFF OMITTED] T5449.003

[GRAPHIC] [TIFF OMITTED] T5449.004



                          CUTTING SPENDING AND
                  CONSOLIDATING FEDERAL OFFICE SPACE:
                      GSA'S CAPITAL INVESTMENT AND
                            LEASING PROGRAM

                              ----------                              


                        Thursday, March 10, 2011

                  House of Representatives,
       Subcommittee on Economic Development, Public
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:16 a.m. in 
room 2167, Rayburn House Office Building, Hon. Jeff Denham 
[chairman of the subcommittee] presiding.
    Mr. Denham. This subcommittee will come to order. Ranking 
Member Norton will be detained for a short period of time. She 
is at a different hearing right now, testifying. So we are 
going to go ahead and get started this morning.
    This hearing is focused on the General Services 
Administration's capital investment and leasing program, and 
examining ways to cut spending and consolidate Federal office 
space. Today we are reviewing the 2012 program and the 
remaining lease prospectuses from the 2011 program.
    Given the financial crisis facing our country, we simply 
must reduce the amount of money we spend to house Federal 
employees. Excess and under-utilized properties must be 
eliminated. The price we pay for space has to be controlled. 
And agencies will have to house more people in less space. The 
committee intends to scrutinize each project from this 
perspective, in order to determine if they will save taxpayer 
money.
    We received the President's proposal, 2012 budget proposal, 
nearly a month ago. That budget proposes to spend $840 million 
on construction and acquisition projects, and $869 million on 
repairs and alteration projects. The budget includes funding 
for specific projects, including ports of entry, FBI 
consolidations, and the repair and alteration of other Federal 
buildings.
    Our committee just received GSA's fiscal year 2012 capital 
improvement program yesterday, nearly a month after the release 
of the President's budget. Year after year, this subcommittee 
has requested GSA provide its capital investment program early 
in the year, so that we can act in a timely fashion. I do 
appreciate that we did receive the program prior to this 
hearing, and hope we can work with GSA on ensuring timely 
submission in the future.
    I also want to thank Mr. Peck for his response to the 
letter signed by all the Members of this Committee last week, 
requesting access and information from the Federal real 
property profile database regarding GSA properties. I do remain 
concerned, however, that some of the requests remain 
outstanding. For example, in January GSA briefed subcommittee 
staff on the lease prospectuses still pending from the 2011 
leasing program, and staff requested information on many of 
those projects. Responses to those requests were only received 
yesterday.
    In addition, at the hearing we had last month, members of 
the subcommittee asked for information to be submitted. Many of 
those deadlines are today, including: the Old Post Office 
Building, an explanation to the subcommittee why the RFP has 
not been released; a list of properties losing money on an 
annual basis in the national capital region--we did have the 
operating costs in there, but without the revenues associated 
with that, it does not allow us the opportunity to see whether 
or not we are losing money; recommendations on any changes 
needed to existing law to streamline the property disposal 
process.
    We will be coming out with our own recommendations in bill 
form. So we would certainly like to work with GSA on their 
recommendations in that process.
    I hope we are going to receive the responses to those 
questions very soon. This committee does not plan to approve 
leases until we receive this information. I want to make sure 
GSA is very well aware of that.
    The administration's goal of addressing the problem of 
unneeded and underutilized assets is one that is shared by this 
subcommittee. It is critical that we have access to relevant 
information in a timely fashion, so that we can effectively 
work with GSA and the administration on proposals to stop waste 
when it comes to our public buildings and facilities. I look 
forward to working with Mr. Peck on these issues.
    And I would just like to add for the record we had a great 
meeting yesterday over at your office. I appreciate the 
opportunity not only to get together, but some frank 
conversation on how we can greatly improve the process and work 
together.
    Ms. Norton will be here shortly, and I will still allow her 
an opening testimony.
    But for now, I would like to call on Mr. Peck for an 
opening statement.

   TESTIMONY OF ROBERT PECK, COMMISSIONER, PUBLIC BUILDINGS 
     SERVICE, UNITED STATES GENERAL SERVICES ADMINISTRATION

    Mr. Peck. Well, thank you. And thank you, Mr. Chairman, for 
coming over to the office yesterday. I also thought we had a 
very productive conversation.
    Chairman Denham, Congressman Crawford, and members of the 
subcommittee, thank you for inviting me here today to discuss 
the investments that GSA is making in our Nation's 
infrastructure through our fiscal year 2012 capital investment 
program. The projects in our fiscal year 2012 program are 
critical investment needs for our country and tenant agencies.
    PBS is investing in our Nation's economic recovery while 
meeting our sustainability responsibilities. These investments 
stimulate job growth, increase space utilization, enhance asset 
condition, and improve the environmental performance of our 
inventory.
    GSA utilizes a detailed asset analysis strategy to drive 
investment decisions. This plan prioritizes agency requirements 
and asset needs based on criteria, including agency mission, 
facility conditions, space utilization, return on investment, 
and sustainability.
    PBS continues to demonstrate strong operational 
performance, surpassing many private-sector benchmarks to 
improve asset utilization and achieve the greatest return to 
taxpayers. Eighty-three percent of GSA's government-owned 
assets achieve a positive cash flow. Our vacancy rate, just 
under 3 percent, is well below the private-sector rate of about 
17 percent.
    PBS is also becoming a green proving ground through 
judicious investment in new and innovative technologies. GSA is 
the steward of more than 1,500 government-owned buildings, 
which have a replacement value of $45 billion. PBS is 
requesting a repair and alterations program of $869 million to 
enable GSA to maintain and improve these properties, so that 
they can continue to meet the needs of our tenant agencies.
    Industry benchmarks suggest investing at least two percent 
of replacement value annually in capital upgrades, and our 
request is at about 1.9 percent. This program includes 
completing multi-phase renovations at the Interior and State 
Department headquarters in Washington, and at the Prince Jonah 
Kuhio Kalanianaole Building in Honolulu. I just say that 
because I'm proud that I know how to pronounce it.
    [Laughter.]
    Mr. Peck. It also includes major consolidations that will 
permit us to relocate tenants from lease space into federally 
owned space in San Francisco and in Overland, Missouri.
    PBS is requesting $840 million, as you noted, for our new 
construction program. PBS's fiscal year 2012 priorities reflect 
urgent tenant mission needs, and investments that will ensure a 
long-term payback for taxpayers. Highlights of the program 
include: $217 million for the Department of Homeland Security 
consolidation at St. Elizabeths in Washington; $243 million for 
FBI projects in San Juan, Puerto Rico and Frederick County, 
Virginia; and $371 million for land port of entry construction 
in New Mexico, Texas, New York, and North Dakota.
    In addition to GSA's budget request, the Department of 
Transportation has requested $2.2 billion in service 
transportation investments which will be transferred to GSA for 
the design and construction of a number of critical facilities 
at our Nation's borders. These investments prioritize the 
largest border crossings that support high-volume 
transportation and cross-border trade.
    You have a right to ask if we can deliver on these 
projects. In our hundreds of accelerated projects under the 
American Recovery and Reinvestment Act passed just two years 
ago, we met every contracting deadline, and are also on our 
construction targets. We have created some 16,000 jobs to date.
    GSA's fiscal year 2012 request assumes full funding of the 
President's fiscal year 2011 budget for GSA's capital program. 
If, in the end, we do not receive funding for the fiscal year 
2011 capital program, GSA may need to alter our fiscal year 
2012 request. If any revisions to the fiscal year 2012 budget 
request are necessary, we will notify the committee 
accordingly.
    We do want to thank the committee and subcommittee for 
authorizing our fiscal year 2011 capital program in a timely 
way last year.
    We urge you also to authorize the balance of our fiscal 
year 2011 prospectus level leasing program. More than half the 
workforce we accommodate is in space leased from private-sector 
building owners. As you know, we prefer to provide space in 
federally owned assets whenever possible. But when we do not 
have such space, we lease in the private market. We will submit 
prospectus-level leases for the fiscal year 2012 program to the 
committee this summer for authorization.
    I need to alert you to an urgent concern. Proposed 
continuing resolution cuts to the Federal building funds 
operations and leasing accounts for the remainder of the fiscal 
year would seriously inhibit our ability to provide basic 
building services, and even to remain current on lease payments 
to our lessors.
    We all want to minimize the size of the Federal inventory. 
The President announced in his fiscal year 2012 budget a 
legislative initiative to accelerate the identification and 
disposal of surplus properties. This is a follow-on to his 
memorandum to Federal agencies in June of 2010 ordering 
stepped-up efforts to identify excess property. That is a 
government-wide effort that we have been leading, since we are 
the Federal Government's central agency for disposing of 
surplus property.
    The administration is proposing a civilian property 
realignment initiative that will enable us to improve how we 
identify and move surplus properties out of the Federal 
inventory, allowing us to realize a financial return, and 
perhaps as important, eliminate the cost of maintaining these 
properties. An appointed board would review all Federal agency 
properties and provide a mechanism to overcome some current 
impediments to moving surplus space out of the inventory. And I 
thank you for your passion and commitment for helping move 
surplus property out, as well.
    More than a year ago we stepped up our consulting with 
Federal agencies on ways to embrace new mobile workplace 
technologies and office strategies that should permit dramatic 
reductions in the amount of space agencies need to carry out 
their missions. We are using the renovations of our 
headquarters building currently underway as an example. We 
expect nearly to triple the number of people that that building 
accommodates.
    The program we present today reflects an analytic and best-
practice-based approach to meeting Federal agency real estate 
needs, while at the same time we improve operational 
efficiencies and space utilization to minimize costs for the 
American taxpayer. We are concentrating reinvestment in core 
assets, and disposing of unneeded assets.
    Mr. Chairman, this concludes my prepared statement. And, of 
course, I am pleased to answer any questions you have.
    Mr. Denham. Thank you, Mr. Peck. We have got a number of 
questions here, and we expect that we will have more than one 
round of questioning. But let me start.
    As you point out in your testimony, Administration intends 
to aggressively pursue dispositions of unneeded assets. 
However, the 2012 budget proposed by the administration 
anticipates that GSA's proceeds from sales will drop from $24 
million in 2010 to $16 million in 2012. Why is there a drop, 
when disposal of properties is a priority for the 
administration?
    Mr. Peck. Mr. Chairman, as you know, I will get you a more 
comprehensive answer for the record. But it takes a while to 
get properties into the pipeline, and then to move them through 
the process that we have and out into the marketplace.
    I will have to check on the numbers. It may be just the GSA 
properties that we are disposing. The government-wide total, I 
believe, is in the hundreds of millions of dollars for this 
year. I think you are talking about--remember, there are two 
aspects to our property disposal: properties that GSA itself 
owns and controls; and those that other Federal agencies give 
to us to dispose of. I think you are giving the GSA numbers, 
but I will double-check for the record. We are working pretty--
--
    Mr. Denham. You would have those other numbers----
    Mr. Peck. We will have--we have the estimates on how much 
we are moving through the pipeline right now.
    And one thing--can I--one thing I would like to highlight 
is we are beginning--for example, this afternoon at noon--an 
online auction of the Fort Worth Federal Center in Fort Worth, 
Texas. It's about a million-square-foot warehouse and 75 acres 
of land.
    Mr. Denham. And GSA does liquidate the properties outside 
of GSA's----
    Mr. Peck. Yes, sir. And it's important, I want to make sure 
we're clear on what we do. GSA owns 1,500 building assets, and 
we at the moment have something like 30 properties that are 
vacant that we ourselves, in GSA, are trying to move out onto 
the marketplace. The Federal Government, obviously, holds 
thousands and thousands of assets. And, on behalf of other 
land-holding agencies such as the Department of Interior, the 
Department of Defense, the Department of Energy, we--they--when 
we find that they have excess assets, or surplus assets, we 
then move them out into the marketplace.
    Our job--if you give me a minute--is to take assets that an 
agency describes to us as no longer being needed for their 
purposes in the Federal inventory, to then, in essence, market 
those properties to other Federal agencies and see if anyone 
else in the government needs it, because we are the 
government's central real estate clearinghouse. If we don't 
find anybody in the Federal Government that has it, then we 
declare the property surplus, and take them through the surplus 
property process, which I think Members of the Committee are 
familiar with.
    Mr. Denham. So the $16 million that we're looking at here 
you anticipate is just from GSA property?
    Mr. Peck. Yes, sir. And that's been confirmed by my staff 
behind me.
    Mr. Denham. And the other properties from other agencies, 
you have direct control over the disposal of those, and should 
also have those numbers?
    Mr. Peck. It's--I mean in most years--and we have stepped 
up our efforts over the last 5 or 6--we have hit a number 
somewhere around, I believe, $300 million in disposals.
    The other thing I will point out, though, is the sales 
dollars that we get understates how much property we actually 
get off our books. Because, in addition to sales--and, in fact, 
more than sales, if you look at square footage--we sometimes 
dispose of properties by giving them away for reduced or no 
compensation to cities and states for specific purposes that 
are stated in the Federal Property Act.
    Mr. Denham. Does GSA retain the proceeds for the non-GSA 
properties that----
    Mr. Peck. No, sir. The--under legislation that passed in 
about 2004, Federal agencies can retain proceeds but they go to 
the agency that was the original land-holding agency.
    So, for example, if the Department of the Interior has a 
property that we sell, all or part of the proceeds go back to 
the Department of the Interior. The only thing we retain is 
we're allowed to take some of our costs out of the proceeds.
    Mr. Denham. Also in your written testimony you had pointed 
out the President has proposed a civilian property realignment 
initiative, a BRAC-like process that we have talked about many 
times. What involvement has GSA had in formulating this 
process, and what would be the role of GSA, and specifically 
the Public Building Service, in the process, should legislation 
be enacted?
    Mr. Peck. Thank you for asking. Since the President issued 
his memorandum last June, GSA has been leading a working group 
of Federal agencies that are taking a look at--that have asked 
agencies to come back with Federal plans. And I should mention 
that this is under the auspices of the Office of Management and 
Budget, but we have been with some of their staff, the arm 
executing the work on the President's memorandum.
    We have been part of a group of Federal agencies that have 
been sitting around the table, figuring out how we can make 
that effort even stronger. And so, we have been a part of 
vetting the President's legislative proposal, and we are 
actually now--legislation or no, we are working together to 
pull together a stronger inter-agency working group to make 
this effort go forward. We are looking at taking detailees out 
of some other Federal agencies, putting them in a GSA space 
which we have, and working on this thing full time, with our 
GSA disposal people helping to lead the effort.
    Mr. Denham. So, under the President's BRAC proposal, which 
I understand is not fully out yet, or vetted, it would not be 
looked--I mean if we're greatly expanding the $15 billion goal, 
does GSA, in the next 3 budgets, have the money and the 
personnel to be able to liquidate that number of properties, or 
are we looking to go out to private companies that can help the 
liquidation process, or a hybrid thereof?
    Mr. Peck. The President's proposal, which was included as 
an--in an appendix to the budget request for this year, asks 
for an appropriation for--to capitalize, in essence, the effort 
of this property effort of about--I think the request is for 
about $80-some million. And then the intention is that, as we 
get proceeds from properties that we sell, we would replenish 
and increase that fund.
    Let me say there are two reasons for that dollar amount. 
One is to pay for private-sector expertise, where we need it to 
do analysis of the properties and possibly to help take it to 
market. I should note that right now, when we do disposals, we 
sometimes use private brokers to help sell them under a blanket 
purchase agreement.
    But we also need some of the money because, in some cases--
I will give you an example from some of our buildings. We have 
a couple of buildings that we report as partially vacant. And 
if we have as much of--in a case where we have a third of a 
building vacant, if there are other Federal agencies in the 
area, what we would like to do is have enough money to be able 
to move people out of the partially vacant building, 
consolidate them into other buildings, and create a vacancy--
and totally empty out the partially vacant building and put it 
on the market. It takes some up-front money to do that, as they 
learned in the Defense BRAC, as well.
    One other thing, Mr. Chairman. The $15 billion is a goal 
that the administration put forward in the President's press 
briefing last week. It is a $15 billion----
    Mr. Denham. We expect to exceed that goal.
    Mr. Peck. We would love to, as well. But let me say one 
thing, that, again, I want to note that there are two ways to 
look at the numbers. One is how much money do we get from 
selling. The other is the savings that we get from not 
operating and maintaining vacant properties. And even when 
they're totally vacant, people say, ``Well, how much can that 
cost?'' Well, you have to secure them, just so people don't 
break into them, so they don't become nuisances in their 
communities. And there are some costs of keeping them----
    Mr. Denham. $6 million a year for the Old Post Office, 
correct?
    Mr. Peck. Well, it's--you know, again, the Old Post Office 
has tenants in it. But we do lose money on it.
    Mr. Denham. Thank you. And just as a side note before we 
start a round of questioning, I'm looking forward to watching 
the online auction today on how things go with the Fort Worth, 
Texas property. But it did come to my attention that this 
committee held a hearing on that in 1997. Why has it taken so 
long to get to this process?
    Mr. Peck. Well, I can tell you, as Jeff Zients said in his 
press briefing last year, a couple of things. One is we had to 
move some--we had some of the warehouse space partially 
occupied, and we were--I don't know--I can't account for before 
2007, which is the farthest back time that I have been briefed 
on. But we did have to move some people out of the warehouse so 
it could become vacant.
    And then we spent a long time talking to local officials 
about their interest in taking the property. And as you and I 
have discussed, and as Jeff Zients, the deputy director of OMB, 
mentioned in his briefing last week, sometimes local political 
considerations really extend the amount of time that it takes 
us to get properties out on the market. The process that allows 
us to talk to states and localities looks like it has a time 
bound to it when you look at our process. But I will just say 
it sometimes gets extended.
    Mr. Denham. Political from both the local level, as well as 
sometimes Members from Congress that may have an interest in a 
specific area, or----
    Mr. Peck. Yes, sir. And, more often than not, it's--
localities have legitimate uses to which they want to put the 
properties. But we have, in law, some fairly narrow purposes 
for which they can get it at a discount. And if we can't give 
it to them under that law at a discount, which usually means 
for free, we talk to localities about paying fair market value. 
And then, sometimes negotiations become protracted.
    Mr. Denham. Thank you. And as we discussed yesterday, some 
of the challenges with putting a property like this on auction, 
as well as the timing, again, one of the things that this 
committee is looking for that we had discussed 30 days ago was 
how to streamline the process. And we still look forward to a 
list of recommendations on that.
    Mr. Peck. Thank you.
    Mr. Denham. With that, I would like to start our five-
minute round of questioning. First Member would be Mr. 
Crawford, our vice chair.
    Mr. Crawford. Thank you, Mr. Commissioner, for being here 
today.
    In your written testimony you highlighted GSA's vacancy 
rates in leased space, as compared to the private sector. How 
are those GSA vacancy rates formulated, and do they take into 
account the actual utilization by tenant agencies?
    Mr. Peck. The fair answer is yes and no, sir. The way we 
count tenancy and occupancy--and I have done this in the 
private sector--is the way a private sector landlord would. If 
a Federal agency is paying us rent on the space, we count it as 
occupied space. That--and the ``no'' part of my answer is that 
that could mean that an agency is, by our own standards, not 
making the optimum use of the space. Or, in some cases, we have 
a lease on space where one agency has downsized and another one 
has increased, and we are moving people in. So there are 
occasional vacancies, too.
    And I want to be clear. This is not--we are in a very 
different situation from the private sector. This is not a 
knock on the private sector. The private sector has vacancy 
because the economy has contracted more than in previous 
recessions, for example, where the private sector may have 
overbuilt. So I don't--this is no knock on them. In our case, 
we are much more able to control the tenancy. We just--when we 
lease space, it's because we know we have a real need for it.
    Mr. Crawford. OK. Thank you. In the 2012 program, GSA 
included a number of projects intended to avoid costly leases, 
including the consolidation of the FBI in San Francisco, and 
back-filling the Veterans Benefits Administration into a 
Federal building in Missouri. What would be the avoided lease 
cost for those projects?
    Mr. Peck. Let me--unless someone behind me knows 
immediately, it's something I can provide you for the record. 
It's a finite number.
    Mr. Crawford. OK, sure. If you want to, provide that for 
the record a little bit later on.
    And then I have one other question here I would like to 
ask, if I could. Can you explain why the request for energy and 
conservation measures has doubled from $20 million in 2011 to 
$40 million in 2012, especially given that most of the $5.5 
billion Recovery Act funds went to converting buildings into 
high-performance green buildings?
    Mr. Peck. Yes, sir. The Recovery Act funds of the $5.5 
billion, about $3.5 billion was money to be--to put--some of it 
was new construction, and $3.5 billion was money to put into 
repairs and alterations in our buildings that included not just 
greening the buildings, it included, in many cases, total 
building rehabilitations, where we had a 40-year-old building. 
So it means replacing the roof, replacing facades, all that 
kind of stuff.
    In every case where we did that, we did green the 
buildings, that's absolutely true. But even that didn't reach--
there was something like 270 major building renovations 
projects. We have 1,500 buildings. And so there are still 
buildings that need work on their energy and water 
conservation. And these funds generally go to smaller things 
that you can do to buildings, like putting in smart meters, 
low-cost technology upgrades that can make a difference.
    Mr. Crawford. OK. And I've got a little bit of time left, 
so I am going to ask you another question. Can you explain why 
two of the most costly projects included in the President's 
budget for 2012 include an FBI consolidation in San Juan, 
Puerto Rico, at a cost of $146 million, and the renovation of a 
Federal building and courthouse in Hawaii at a cost of nearly 
$200 million? Can you talk about the need for each of those 
projects, what the utilization rates are, and how they save 
money?
    Mr. Peck. In the--in Hawaii, there are two issues in the--
I'm not going to try to pronounce it again--the PJKK Building, 
as it's affectionately known. The building is--it's an old 
building. It's had some major--we don't have structural issues, 
but we have some major facade issues, water infiltration in the 
building, and it's--mostly it's--in that case, it's mostly an 
operating asset.
    And we operate like a private-sector landlord in this 
sense. At some point a building gets to the point where it's no 
longer functional. We can, by investing that money, save money 
on operating costs. And I will say that, since we do operate 
like a business in the sense that we have a rent roll--we're 
mostly self-financing--when we do that we are also able, over 
the years, to recapture our investment by raising the rent, 
because the building will now be a higher class building. 
That's in that case.
    In the FBI--in Puerto Rico, there are--I will get you the 
utilization rates in the building, but I'm going to just say to 
you, sir, that, looking at our inventory, utilization rates in 
general could be improved.
    Mr. Crawford. OK.
    Mr. Peck. I'm not going to--I will see what they are in 
that building, but I think we could improve. And I'm looking 
forward to having an opportunity to discuss with you some of 
the things that we're doing to do that.
    Mr. Crawford. OK. Thank you, Commissioner. I yield back, 
Mr. Chairman.
    Mr. Peck. Thank you. Mr. Hultgren?
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you, Mr. 
Commissioner, for being here. A few questions.
    The President proposes over $200 million for projects 
related to DHS consolidation at St. Elizabeths in D.C. Can you 
explain how these projects fit into the overall consolidation 
plan, and what is needed for Coast Guard's occupancy of its new 
headquarters?
    Mr. Peck. OK. The Coast Guard building is well along, as 
anybody who flies out of National and gets to sit on that side 
of the plane will notice. We are on track to finish that 
building. We have got funding for the Coast Guard building. But 
there are associated projects at the DHS headquarters that are 
essential, both in the fiscal year 2011 and fiscal year 2012 
programs.
    So, let me just restate. The purpose of the consolidation 
is to get--as we all know, one of the issues on homeland--with 
improving homeland security is getting the various agencies 
that are involved to coordinate better, so that they coordinate 
intelligence and operations. And the idea is to get their major 
operating entities up on the St. Elizabeths campus.
    The next phase of projects, the immediate next phase of 
projects in fiscal year 2011, in fact, is to create the 
national operations center, which is, obviously, the heart of 
their operation. There is some construction on that going 
underway at the moment. The space for the Secretary's 
headquarters--again, the heart of the agency--is next on the 
agenda. And there is a lot of infrastructure work that has to 
be done so we can continue with some of the other buildings 
which will house aspects of--parts of customs and border 
protection.
    Mr. Hultgren. The President's proposal requests funds to 
begin a repair and alteration project for a Federal building 
for ICE in Los Angeles. Wonder if you could just talk briefly, 
too, how you see that this project would save money and 
increase utilization.
    Mr. Peck. I'm sorry, tell me----
    Mr. Hultgren. The ICE in Los Angeles.
    Mr. Peck. Oh.
    Mr. Hultgren. For ICE----
    Mr. Peck. That's a--oh, that's a good story. That was a--we 
were going to do a--what's called a lease construction project, 
a project in which we go out in the private market and ask 
someone to basically do us a build-to-suit project. And we have 
converted that to a government construction project.
    The advantage is--I am going to be clear about what I say 
about leasing. As with any corporate real estate operation, 
there should be a mix of leased and owned space. You generally 
lease space when you have relatively short-term needs, or needs 
that you think you might have to move around. When you have 
permanent operations that you know will be around--and 
generally it's for more than 15 to 20 years--it makes sense 
over time to own the asset.
    And so, this is a product that we converted from leasing to 
construction. And, in the long run, that means that we--that 
the Federal buildings fund, which is basically a revolving 
fund, will retain the revenues and make enough of a net income 
to be able to do those things we have to do in our inventory.
    Mr. Hultgren. OK. So you do see it with the ICE project, 
there is a net savings?
    Mr. Peck. Yes, sir. I could get you the net present value 
difference between leasing and ownership, as well.
    Mr. Hultgren. That would be great, if you could. Thank you.
    The President's proposal also requests funds for the FBI 
record center in Frederick County, Maryland. Why is this space 
needed, and how will the project cut spending and improve space 
utilization, as well?
    Mr. Peck. There is a long and, in the end, I think, a good 
story here. We have been--the FBI has needed a place for its 
records. A lot of things are digitized these days, and so they 
need different kinds of record storage facilities. They still 
have a lot of paper records. And they have needed this for a 
long time.
    But because of technology, we have been able to--this 
project has gone from at one time being nearly a million square 
feet down to where it is today, which I think is a little over 
300,000.
    And again, at one time we were talking about a lease 
construction project, and this too has been converted to a 
request for funds to build it. I mean this is a classic kind of 
a warehouse records center kind of a facility that we're going 
to need for a long time.
    Mr. Hultgren. So with the smaller size, though, it does 
appear that it would still accomplish the purposes of the FBI, 
but also would have the utilization that we really need there?
    Mr. Peck. Yes, sir.
    Mr. Hultgren. OK.
    Mr. Peck. We have taken out of it at least one minor 
function that they don't feel needs to be collocated there. 
But, because of technology and another look at how they do 
their work, we have been able to skinny it down.
    Mr. Hultgren. I'm going to switch just a little bit. I've 
got just a little bit of time left here.
    But dealing with border crossings, the 2012 program 
includes funding for a number of land ports of entry. As you 
know, last year our committee had concerns that some of the 
Recovery Act funds were going to border crossings that saw very 
little traffic. Can you provide the committee with the traffic 
and utilization rates for each of the facilities in the 
President's budget?
    Mr. Peck. Yes, sir, I will. And that's in the--these 
projects were screened by looking at where we have the most 
cross-border traffic.
    Could I just say I was in--about a month ago I went down 
to--looked at a number of the border crossings in Arizona and 
our border crossings in El Paso, and there are places in which 
the trucks line up for, sometimes, eight hours to get across 
the border. It increases--they need to be screened, there is no 
question about that. But it increases cost to the American 
consumers when that happens. And so we have--I will get you the 
counts.
    Mr. Hultgren. Thank you, sir. Do I have time for one more 
question, or----
    Mr. Denham. Absolutely.
    Mr. Hultgren. In your testimony you note that the 
Department of Transportation has requested $2.2 billion in 
their surface transportation funding for critical facilities at 
the borders. These funds, you note, would be transferred to GSA 
out of what the DoT account--I'm sorry--out of what DoT account 
would these funds come from? Is it from the highway trust fund, 
or from another account?
    Mr. Peck. I think--yes, it's service transportation funds, 
but I'm going to have to--I want to--I know a little bit about 
this. I want to find out if it's from highway trust funds. I 
don't believe so.
    Mr. Hultgren. Well, if you can get that to us, as well----
    Mr. Peck. I will.
    Mr. Hultgren [continuing]. That would be great. I will just 
keep going, if that's OK, until they cut me off.
    Would the $2.2 billion in DoT funding be for actual 
construction of new buildings and facilities, or for the roads 
leading to the facilities?
    Mr. Peck. It's mostly design and construction. But in a lot 
of cases on our facilities as they are, we--well, not in a lot 
of cases. In some cases we do pay for some of the road 
infrastructure, although generally that's done by the state 
departments of transportation.
    But there are cases in which, because if we just plunk a 
land port of entry--a new one--down we will create terrible 
congestion, we do spend some of the money outside the ports as 
well.
    Mr. Hultgren. OK. Will we receive prospectuses for the 
projects funded with the $2.2 billion in DoT funding?
    Mr. Peck. No, sir. I believe on that--am I right? On that 
account you would get a spending list, somewhat the way we did 
on the American Recovery and Reinvestment Act. I note, though, 
that transportation funds come through this committee as well, 
so you would certainly have every opportunity to review it.
    Mr. Hultgren. OK. One last thing, if I could sneak it in, 
you highlight in your written testimony again that more than 
10,000 jobs have been created through GSA's $5.5 billion that 
was included in the Recovery Act. Do you have a breakdown of 
the types of jobs created, and how many of them are long-term 
permanent positions? And, if you do, could you get those to us?
    Mr. Peck. I will. But I should say they are--these are 
generally not long-term, permanent positions. These are design, 
architecture, engineering, and construction jobs.
    Mr. Hultgren. OK. But if you could, get us a list of 
approximate time for those positions, and just a follow-up of 
how that's gone.
    Mr. Peck. I will. Actually, on those, I have to tell you we 
have been very scrupulous about that. We even go out and ask 
our contractors on a monthly basis, I think it is, to give us 
their breakdown of their jobs.
    Mr. Hultgren. Great. Thank you, Commissioner. Thank you, 
Mr. Chairman, for your indulgence. I yield back.
    Mr. Denham. Thank you, Mr. Hultgren. Obviously, we went 
over the five minutes because there is some new questions that 
have come up under this. I didn't realize that the $2.2 billion 
is coming from the highway trust fund.
    Mr. Peck. I believe it is not coming from the highway trust 
fund. It is coming from the Department of Transportation. We 
are going to check and find out if it's highway trust fund 
money or appropriated funds. Generally, appropriated funds.
    Mr. Denham. Because the highway trust fund would go to fix 
roads and highways.
    Mr. Peck. Correct. We know that. And the reason that the 
money would come from the Department of Transportation is that 
this is--has a lot to do with cross-border traffic and trade. 
And the administration felt that it was--that the DoT funding 
was appropriate to carry this activity.
    You will see the--in the projects that we are going to 
propose, you are going to see they're mostly from congested 
land ports of entry.
    Mr. Denham. OK. And even though this is DoT funding--I know 
you're going to go back and see which fund this is coming out 
of--but DoT funding, and we're not going to receive 
prospectuses on this?
    Mr. Peck. That's--it would be because it's a transfer of 
funds, somewhat the way the American Recovery and Reinvestment 
Act was carried out. We would provide a list of projects that 
we would propose to fund under it.
    I think some of the thinking has been, Mr. Chairman, that 
this committee obviously funds the Department of Transportation 
and the transportation program as well, and would have every 
opportunity to review the list of projects. It's a matter of 
legislative interpretation that funding that comes to us 
outside of the public buildings fund, the Federal buildings 
fund, doesn't go through a prospectus process.
    It doesn't mean that we aren't--that you aren't welcome to 
have a hearing and make whatever decision you make, because 
it's going to be a full--it's going to be a request for at 
least an appropriation. And I believe that an authorization to 
the Department of Transportation, but I have to check on that.
    Mr. Denham. We can obviously hold a hearing any time we 
find out new information. This seems like it is trying to get 
around the process, almost like a blank check. We're going to 
go out and spend the money, and then we will tell you where we 
spent it afterwards.
    Mr. Peck. No, sir. I mean you will get a list of proposed 
projects to review before any spending is done. Yes.
    Mr. Denham. When do you expect to have that list?
    Mr. Peck. I will have to get back to you on that. I don't--
it's not being developed--there is a draft list, and I don't 
know where it is at the moment.
    Mr. Denham. When do you expect to spend the money?
    Mr. Peck. Well, it's for fiscal year 2012, so we would 
propose to start at the beginning of the fiscal year, if we get 
it funded.
    Mr. Denham. So, similar to our prospectus, you must have 
some information on it----
    Mr. Peck. We do. There is--like I said, there is a spending 
list that is not--a project list that has not yet been cleared 
for submission to the Congress.
    Mr. Denham. Thank you. Chairman Mica? Five minutes to 
Chairman Mica.
    Mr. Mica. Thank you. And thank you, Mr. Chairman. And 
welcome, Mr. Peck. Good to see you today. I know you're talking 
a bit about some of GSA's capital investment leasing program.
    I always go back to my favorite subject, which is the 
consolidation of the FTC current space. And for some time now 
you have had before us a prospectus to lease a total of over 
400,000 square feet. And we have one lease expiring, the FTC 
currently has their 306,000 gross feet of space in the Apex 
Building, where they are headquartered now. And then they have, 
on New Jersey Avenue, I think, another over 200,000 square 
feet. And then they lease a smaller amount of space. And there 
was the possibility of getting a third building for them, or 
consolidation.
    Now, the New Jersey space lease expires. Is that in 2012 or 
2013, do you recall?
    Mr. Peck. Checking my--expires in August of 2012.
    Mr. Mica. 2012. The other thing, too, is I know some time 
ago you did propose leasing additional space for them, and they 
have additional requirements. We also have the Apex Building in 
which they are housed as 306,000 gross square feet, a net 
usable of 258, and they're using 180, or maybe a little more 
than that currently, with somewhere between 450--and they 
claimed up to 700--employees. But that request for additional 
space--have you been in consultation with them on their space 
needs?
    Mr. Peck. Yes, I have not personally, but we certainly 
have, as an agency. Yes, sir.
    Mr. Mica. And when we received the prospectus last year I 
had pretty much the agreement of the former chair of the 
committee to try to move forward with the consolidation of--
approval on moving forward. And, as you know, we passed a 
resolution.
    I have been here a while. It's sort of unprecedented to 
have a resolution of the nature we did in response to a 
prospectus request. Isn't that--that's sort of unusual. I know 
it puts you----
    Mr. Peck. Right.
    Mr. Mica [continuing]. In a dilemma, but I think it set 
forth some of the issues that we felt were important. You 
provide us with a prospectus and a request, and then I thought 
it was incumbent on us to pass or adopt a resolution that 
stated our position.
    I know that puts you in a little bit of an awkward 
situation, and there has been a certain amount of lobbying by 
the FTC commissioners to retain their space. Have you 
undertaken yet, or your folks undertaken yet, since we have 
passed the resolution, any discussions with FTC about, again, 
consolidation of space or meeting their space needs, given that 
we are intent on trying to transfer their building to the 
National Gallery of Art, so they don't have to lease additional 
space outside, and could consolidate some of their operations?
    Mr. Peck. Mr. Chairman, I have not talked to them. I don't 
know that anyone else in GSA has, but I have not personally 
engaged them since you all passed the resolution. But I intend 
to. And I would like to, if I could, lay out a couple of points 
of view, and see if we can continue a discussion soon about----
    Mr. Mica. We would like to work with them. My intent is not 
to deprive them of any of the space that they need, but rather 
to look at a consolidation that makes sense. Folks have quoted, 
you know, Roosevelt, when he dedicated the building. We went 
back and researched the--when the building was dedicated in the 
1930. In fact, it was a consolidation of multiple FTC locations 
around Washington that they put into one building. And now we 
have a situation where they need much more beyond this space 
than they have in the headquarters.
    And you also came to us with their request for additional 
lease space, which we think would make sense, and finding 
something suitable--and Ms. Norton, of course, would like that 
in the District--and I think there could be substantial 
savings. Our resolution outlined that.
    Plus we have the unprecedented situation of the National 
Gallery of Art being willing to come in and renovate an 80-
year-old building, and again relieve of us leasing space that 
they currently lease, and meeting their space requirements for 
the future. So, it's not a wild-eyed proposal, but I think it 
also has the potential--if you start out with $200 million in 
saving and renovating a building, eventually you will have to 
renovate. I saw the figures, 138, but I think it will be closer 
to the $200 million mark by the time you get through giving, 
again, the cost of projects we have seen that we have a pretty 
good handle on.
    We have no intent on changing--our proposal wouldn't change 
the facade in any way, and I think that many more people would 
access the structure. They have 4.5 million versus 450 or 600 
or 700 that go into the building every day now, which would 
again provide an opportunity also to let people know that that 
was historically their building, what the FTC does, and they 
wouldn't be lost, so to speak, in the mix.
    The other thing, too, is we outlined in legislation we 
passed in the transfer--you have space coming up at the GSA 
building, we have space behind us next to the Ford building.
    And we have also heard--and I won't get into public 
discussion of it--several other agencies that might like to 
relocate that are in the District that--this might be a good 
time to be looking at those kinds of deals, where they, for 
security or other reasons might want to relocate or spread out 
some of our activities in national security interest that I 
think you're aware of.
    So, we have a number of choices. The committee will work 
with you. We will be willing to sit down, if--I know the FTC 
commissioners like their view and their particular setting 
right now, but that's not--that shouldn't be the paramount 
question. It should be the net savings, the--providing adequate 
space, both for the FTC and for the National Gallery, and doing 
it all in a responsible fashion that looks out for the 
taxpayer, too. Because I know you will work with us and 
appreciate it.
    And if you see any obstacles, too, that we can assist you 
with, I want to make certain that you know that we have 
initiated this process, and we are willing partners to work 
with you to find a satisfactory resolution. It's not something 
we just want to cram down people's throats or act on in a 
singular fashion. It has to be a cooperative effort. We know 
that.
    So, again, I look forward to working with you on it. And if 
you start those discussions, you can let Mr. Denham know, and 
we would be glad to join you and, again, look for positive 
solutions.
    Mr. Peck. Mr. Chairman, may I response?
    Mr. Mica. Yes.
    Mr. Peck. First, I really--I very much appreciate your 
statement. And, as you know, I once worked at the National 
Endowment for the Arts. I have been friends with two directors 
of the Gallery, and I----
    Mr. Mica. I didn't know all that.
    Mr. Peck. It's the--it's a--it's one of the great art 
museums in the world. And I think doing what we can for the 
National Gallery is--should be a high priority for the 
government, as it has been since the Roosevelt administration.
    I very much appreciate your concern, as is ours, and we 
have discussed this, that we--since the strategy, which the 
committee and GSA mutually has pursued for a long time is 
trying to keep government agencies in government-owned space as 
much as we can, we have a concern which you have just 
expressed, too, that we try to keep the FTC in government-owned 
space.
    I will just add two things. One is that, as you noted, I 
have a--we have a tenant, a client who wants to stay in their 
building, they are wedded to it. That's kind of a good thing, 
because it's a beautiful building, and I appreciate the fact 
that they like it a lot.
    And finally, I will just say I will take you up on the 
suggestion that we talk to staff and Chairman Denham about how 
we proceed on this. As you note, there may be alternatives. I 
need to talk to the FTC. And at some point soon we should try 
to find a way to satisfy all the parties, including--as I 
recognize--the needs the National Gallery of Art, and us, to 
keep the FTC in government-owned space.
    Can I also assure you that I have spoken to Chairman Denham 
any number of times, and he has never once failed to include 
this on his list of issues?
    Mr. Mica. Well, again, we have certain priorities. This is 
my priority, working with Mr. Oberstar--and we were close to an 
agreement at that point.
    And I think the other thing, too, is we have to do things 
that are in the best interest, long-term, of the government. 
And this is our Nation's capital. And I think, looking to the 
future and what we're leaving here, the National Gallery, which 
is the repository of our Nation's treasures, FTC, which has an 
important function, we can both serve their needs in a 
responsible way for the taxpayers and for the mission that 
we're responsible making certain they complete.
    So, I look forward to working with you. I know we put you 
sometimes in a difficult position. We will be working with the 
other body now. But I can assure you that, one way or the 
other, that this transfer will take place, and we want to work 
with you to make it as smooth as possible.
    Mr. Peck. Mr. Chairman, this is a great job that the people 
and the President have allowed me to have. And dealing with 
issues with this is one of the challenges that I welcome taking 
on.
    Mr. Mica. And I will just tell you I have no other priority 
for the balance of my tenure in Congress, so I am sort of 
focused on this. Thank you.
    Mr. Peck. All right. Thank you, sir.
    Mr. Denham. Thank you. We are going to continue on 
questions a little bit further here, specifically the 
evaluation process on how you take a look at weighting 
different properties and how you sell them.
    When you're prioritizing projects, are you looking at 
mission urgency, energy conservation, return on investment? How 
are the different factors weighted?
    Mr. Peck. OK. You're talking about repair and--when we do 
the--look for repair and alteration projects and mostly--or new 
construction?
    Mr. Denham. Yes.
    Mr. Peck. Either one?
    Mr. Denham. Well, as you're evaluating projects as a whole. 
I mean, if you have one that may not be utilized completely, 
you know, before that goes out to other agencies and other 
uses, are you also weighing in that proposal different weights 
on--you know, is it going to--do you have extensive TIs, do you 
have energy conservation----
    Mr. Peck. If you're asking about properties that we think 
are close to being excess or surplus, we--there are two 
different levels on which I think we should all be talking 
about our surplus properties.
    One is--and this will also describe the process that we are 
going though right now, under the President's memo, and 
hopefully under some kind of legislation to go deeper--is, one, 
we have properties that we know are either unused or almost 
unused at the moment. And as I said, when the ones that are 
almost done used--meaning that we have enough vacancy or enough 
underutilization that we think that we can move out--we take a 
look at, ``Is it a property worth putting more investment in, 
so that we can get more people into the property and use it 
better?''
    Some properties, I should note, in other agencies--you can 
imagine; I will just give you a--the example that people use a 
lot is at one point lighthouses were important to the country. 
And then, obviously, technology overtook them and the Coast 
Guard had a lot of excess property on its hands. Even there, we 
asked other agencies if they could use that kind of property on 
the coast. And in many, and probably most, cases the 
lighthouses went out to somebody else. So, there are those 
things, where you say, ``All right. Can anybody use it?''
    There are properties in which you--that--in our 
properties--more often, say a Federal building, we have areas 
in which we ask ourselves the question, ``OK, if we have 
vacancy in a Federal building, should we take it to--should we 
try to tenant the building, or is this an asset that's not 
worth spending the money on?'' And you can do--you can crunch 
the numbers on it. Because we charge rent, we can figure out 
what our return on investment would be.
    Mr. Denham. So, how often do you crunch the numbers? I mean 
do you do a general assessment for every property, all 1.2 
million properties, to see exactly where we are? Because some 
of these properties may not have been assessed for decades.
    Mr. Peck. No, I'm talking about GSA properties now.
    Mr. Denham. OK. So----
    Mr. Peck. Yes. GSA properties, we have three tiers of 
properties. We--there are short-term holds, meaning we're 
looking to get rid of them; medium term, and we--we're not 
sure; and long term, that we are going to keep for a long time.
    For our other properties--and can I just say that for the 
other properties and other government agencies, one of the 
issues that I think anyone will tell you we have in the 
government is that there are--we don't, as GSA, review other 
agencies' properties, at least haven't until the last year, 
unless and until the agencies report them as excess to us?
    I will qualify that only through this. We have a very 
entrepreneurial, aggressive disposal staff in GSA, and when 
they get word one way or another that an agency has a property 
that may be underutilized, they have in the past gone out to 
the agency and said, ``Is this possibly an excess property?''
    I think anyone who has looked at this business over the 
last 20 to 30 years would tell you that there are properties 
that agencies sometimes hold on to in the wish, in the hope, 
that some day they will get the funds to do something with it. 
They may even have legitimate plans.
    But there comes a point--and this is where I think we ought 
to work together--there comes a point where it's pretty clear 
that we're not going to get the funding to do it, that the uses 
to which an agency wants to put the property are not going to 
come about, and that we ought to get them out of the inventory.
    And what percentage of underutilized properties are in that 
category that we could move them into excess, it's really hard 
to tell at the moment. But I think in the next six months or 
so, we will have a much better handle on that.
    Mr. Denham. Just under GSA properties, 1,500 properties----
    Mr. Peck. Yes. Yes, sir.
    Mr. Denham [continuing]. You begin your evaluation based on 
underutilized properties, and then push them to become surplus 
properties at a certain point when you deem the criteria not 
met?
    Mr. Peck. Right, right. As you will note, we don't have all 
that many. We have--most of our properties are in major or 
almost major metropolitan areas, in which there is a continuing 
Federal need. So if we own a Federal building and some agency 
moves out, we almost always have someone we can move in from 
leased space.
    We do, however, have some smaller properties in outlying 
locations around the country where we--too, if we find a 
vacancy, we decide, you know, it's probably not worth putting 
the money into the building. And in that case we might dispose 
of it and lease what space we need. But we just do a financial 
analysis, like--that's fairly straightforward, and just like 
anybody in the real estate business would do.
    Mr. Denham. But there is nothing that would alert you or 
your team, unless you have one of the properties that's up for 
a new lease, if somebody moves out or----
    Mr. Peck. Oh, no. I'm sorry. We, on a rotating basis, 
continually look at our own inventory. We have a portfolio 
management office in our national headquarters and in each 
region, and their job is continually, whether we have something 
moving in the building or not, to take a look at it.
    Mr. Denham. Continuously, or random?
    Mr. Peck. Continuously. And the way that--the----
    Mr. Denham. So, how often?
    Mr. Peck. Well, I--I'll tell you what drives it. I will 
tell you why it's a continuous process. Every year we put out a 
call. We have, as I said, a benchmark of wanting to spend 
something like two percent of the replacement value of our 
inventory on repairs and alterations. We put out a call to our 
operating elements, our 11 regions every year, and say, ``Given 
your inventory, tell us''--you know, ``do an evaluation of the 
inventory that you hold, and tell us which of the buildings you 
think need a repair and alteration investment in them.''
    We have hurdle rates. We know how much of a return on 
taxpayer dollar put into that building we expect to get back in 
increased rents or increased usage. So--and as I said, we have 
already tiered all of our properties into three tiers in which 
we know which ones we think are short, medium, and long-term 
holds.
    I will note in the early 2000s, GSA disposed of a number of 
properties, and we actually sold off about $220 million worth 
of properties as a result of that kind of tiering of the 
inventory.
    Mr. Denham. So the 1,500 GSA properties have all been 
evaluated at some point in the recent past?
    Mr. Peck. Yes, sir.
    Mr. Denham. So you know----
    Mr. Peck. You know, I have--first of all, one of the great 
things about GSA is we have weekly, monthly data on vacancy, 
rent rolls, by asset, by region, and nationally. So we're 
constantly looking at where we have vacancy, where we're not 
getting--at the beginning of every year we have a budget for a 
building. And if we're not getting the rent that we expect from 
the building, we go to people and say, ``What's happening here? 
Does that mean that nobody is in the space?'' And so we have 
that.
    We have asset status studies on every single one of our 
buildings. And let me ask how--what's the longest period a 
building could go before the asset study gets reviewed? Every 
building, every year, is going to get some kind of a review of 
its asset status.
    Mr. Denham. So you are confident that the 1,500 properties 
under your purview, you can tell me, square footage, how many 
people are in there, what it's worth, what the ROI is?
    Mr. Peck. Yes, sir. Yes, sir. I want to be--I want to make 
the other point I have made to you before. Take the GSA 
building. One of the things we are doing as we are looking at 
renovating it is that we could probably assign--we will assign 
a lot more people to the building.
    So, when we say our main Federal building in a city is 
fully occupied, it is. We are in the process of talking to a 
number of Federal agencies intensively about how well they 
utilize that space. Some of them are--we're probably not far 
off from current industry benchmarks, but the industry is 
moving. A lot of progressive firms are moving to a point where 
they can get a lot more people into a lot less space, because 
they just recognize that people can work from anywhere.
    So, I think you will see, over the next year or two, 
strenuous efforts on our part to increase the space 
utilization. And that, in itself--the reason I'm saying that is 
that that in itself may mean that what we regard as a fully 
utilized occupied building today may not be--that may not be 
the same standard we apply to it years from now.
    Mr. Denham. On top of the 1,500 properties that are 
directly under your purview, how many leases go through GSA?
    Mr. Peck. We have about 8,100 leases, and----
    Mr. Denham. So----
    Mr. Peck. Around the country.
    Mr. Denham. So does GSA oversee all leases under the 
Federal Government?
    Mr. Peck. No, sir.
    Mr. Denham. What----
    Mr. Peck. We are--when you look at the--if you look at the 
data, I believe we are the government's largest leasing agency 
in the United States. But other agencies have their own leasing 
authority. The Army Corps of Engineers does some leasing on 
behalf of the military. And some other agencies also have their 
own authority. So we're not the only ones. But we are the--at 
least the largest lessee in the Federal Government.
    Mr. Denham. So what type of oversight is there over the 
independent agencies?
    Mr. Peck. The independent agencies are--and what I'm 
describing there are agencies that have their own legislative 
authority. We sometimes delegate authority to a government 
agency to do leasing that would otherwise be done by GSA. And 
in that case it's our responsibility to make sure that they 
follow--that they're following the government's procurement 
rules.
    If an agency has their own independent legislative 
authority, they are responsible themselves for following the 
Federal acquisition regulation and all the other things that 
you have to do to do a lease.
    Mr. Denham. SEC is independent?
    Mr. Peck. They have their own legislated leasing authority.
    Mr. Denham. So should those leases not go through you?
    Mr. Peck. I would say, given the recent experience of the 
SEC, I would say we would have done a better job than they did. 
By which I mean, just to be fair, when agencies come to us with 
space requirements, we have ways, including checking back with 
the Office of Management and Budget--where they say that they 
need space to expand their activities, we check to make sure 
that the activities are actually budgeted for expansion. That's 
a crucial step.
    Mr. Denham. I would agree that is a crucial step.
    At this time I would like to yield five minutes to Ms. 
Norton, as well as an opening statement, if you would like.
    Ms. Norton. Well, I thank you very much, Mr. Chairman. And 
first, I offer my apologies. There was a mark-up involving a 
bill directly affecting the District of Columbia. It has just 
ended, and I could not leave. I always know that if I leave 
when a District of Columbia matter is up, the Congress could 
sell the District. So I stay on duty.
    I did want to--however, I am not going to read my opening 
statement, but I am going to summarize what was--what is in my 
opening statement.
    And I want to say to you, Mr. Peck, that you will note that 
the chairman has proceeded, although we have not yet received 
all the prospectuses for the 2012 program, and I endorse the 
chairman's resolve. If your prospectuses aren't up here, too 
bad. Because what he is trying to do--and I'm going to say we 
should have done a better job with this--is to make sure that 
the authorizers indeed have acted before the appropriators do. 
So, I fully endorse the chairman proceeding with the 2011 and 
2012 budgets.
    I do want to note that your submission involving $1.7 
billion capital program, while it's modest in keeping with the 
President's intention to submit only what he regards as 
necessary, that it does represent a 16,000 private-sector 
construction and related jobs. Particularly in the absence of 
any jobs legislation from the present majority, we should 
welcome this small infrastructure contribution at a time when 
jobs are--when unemployment is still so high, and the Congress 
is doing absolutely nothing to respond to that.
    I note that H.R. 1 would totally eliminate the 2011 capital 
program. And I want to just say for the record what that will 
do. That would bring to a standstill, stop in its tracks, 
priority construction projects of the United States, including 
the consolidation of the 22 agencies of the Department of 
Homeland Security. This, of course, is the highest priority 
secured facilities program in the budget.
    Moreover, GSA has said to us in prior hearings that 
delaying the DHS headquarters and other construction related to 
the Department of Homeland Security would cause GSA to extend 
leases for short terms, which is, of course, the most costly 
way to lease for the Federal Government. In other words, we are 
adding to the costs of the Department of Homeland Security.
    If we proceeded, however, and this project is on time, what 
happens when the project is done is $180 million annually then 
goes to the Federal building fund. The Federal building fund is 
much depleted now, so that there is every reason that this 
project, which was a priority of the last administration and 
remains a priority of this administration, will not be stopped 
in its tracks, but proceed apace.
    If you can imagine what--the cost of stopping a project 
that is going full guns, you will have an understanding of why 
it would be counterproductive for us to wipe out the 2011 
capital program. And I don't believe that the Senate or--and 
certainly that the President will allow that to happen. There 
is lots of negotiations that's going to have to go on before we 
get even close to an agreement on 2011, much less 2012.
    The collocation of a number of agencies on the DHS campus 
also avoids leasing in the highest commercial cost leasing area 
in the United States. So there are multiple reasons to not be 
penny wise and pound foolish.
    I want to say how much I appreciate the President's work--
his proposal to create a BRAC-type commission for Federal real 
estate. He is way out in front of the Congress in this regard. 
But there is great concern in this subcommittee and committee, 
and in a number of other committees, about surplus property 
that the Federal Government has not been able, until now, to 
dispose of. So his idea, it seems to me, is one that should be 
embraced by us all.
    And finally, I want to say to Mr. Peck, the delineated area 
and procurements remains a concern for the subcommittee. We 
are--the lease--I'm sorry, what is the lease? Parklawn lease 
continues to be troubling. We expect procurements to be done by 
the book, carrying out congressional resolutions.
    Mr. Chairman, again you have my apologies. I am pleased 
that you proceeded. This is an important hearing, and you are 
right to go now, early, before the appropriators get down to 
work on this mission. I thank you very much, Mr. Chairman.
    Mr. Denham. Thank you very much. At this time do you have 
questions for Mr. Peck?
    Ms. Norton. I would ask only about the status of the 
Parklawn delineated area issue, which has caused GSA so much 
heartache.
    Mr. Peck. Thank you, Ms. Norton. That would be a good 
characterization of the lease for HHS, which is currently at 
Parklawn. Could I just say I share your concern about the way 
delineated areas are drawn?
    And I think, in part, because of the concerns that this 
subcommittee has brought to us, we are taking a look at it, 
particularly in the national capital region, to make sure that 
we draw delineated areas that maximize competition to get the 
agencies' functions done, and then, when we actually carry out 
our lease solicitations--which is what these are mostly about--
that we follow the delineated areas.
    As you know, we have scrupulous layers of--we have multiple 
layers----
    Ms. Norton. That procurement has been going on for three 
years.
    Mr. Peck. Yes, ma'am.
    Ms. Norton. And you know what the issue is, Mr. Peck. The 
issue is the Agency deciding where it wants to go, rather than 
GSA deciding what's the best deal for the taxpayers. Why is it 
going on for three years, and when is it going to be settled?
    Mr. Peck. Correct. I can't account for all of the three 
years, I have only been here for a year-and-a-half. An 
announcement on that lease is imminent, is all I can tell you. 
I can't say more, because it's--we're in the--we're in that 
period called procurement sensitivity. But the announcement 
will come very, very soon.
    Ms. Norton. Mr. Peck, here is a sensitive procurement issue 
for this committee. On February 9th--perhaps you remember that, 
it was when you were tortured, along with the entire 
subcommittee, at a hearing in the Old Post Office Annex. And 
you are aware that I would have done that a little differently. 
I would have had you there, and we would have been here, 
because we have been doing the right thing all along. So I 
don't know why we had to be subjected to that.
    But under torture, you said--you committed to either have 
the RFP out on the street for the Old Post Office, or provide 
an explanation of why it is not out. So this is your chance. Or 
you may want to go back to the Old Post Office Annex.
    Mr. Peck. I will provide a written explanation this 
afternoon. But----
    Ms. Norton. No, no. You can give an oral explanation right 
now.
    Mr. Peck. OK. Of course. But I believe I owe the committee 
a--if you like, I will do a written response.
    Ms. Norton, I am just going to say this. I suspect you're--
frustrated would be probably an understatement--about the Old 
Post Office RFP. And that would accurately describe the way I 
feel, as well. I did not have an RFP on the street today. I 
am----
    Ms. Norton. And what's the explanation for that, Mr. Peck?
    Mr. Peck. You know, the explanation is, despite many 
meetings with the people in the government who have to review 
this, including my own personal participation in it, we have 
not been given a go-ahead to put the RFP on the street.
    Ms. Norton. You mean OMB is in this again? We have got--
wait a minute. This RFP was very different from any other RFP 
since I've been on this committee, because it was mandated by a 
statute.
    Mr. Peck. Correct.
    Ms. Norton. Now, the last I read, OMB cannot override a 
statutory mandate of the United States Congress.
    Mr. Peck. A point which we have made several times, I can 
assure you.
    Ms. Norton. So--no, I want to know why it is at OMB at all. 
This is not a matter----
    Mr. Peck. Ms.----
    Ms. Norton. This is--Congress said, ``You will, in fact, 
gain revenue for the taxpayers, as you did with the tariff 
building, if this building is remodeled.'' And because OMB got 
in the way then, the Congress said, ``We know what to do. We 
will pass a statute that instructs the administration what it 
is to do.''
    So, the OMB excuse has run out, because it is overwhelmed 
now by a statutory mandate. And we need to know from you what 
OMB's issue is with the Old Post Office RFP.
    Mr. Peck. As near as--I can give you two general concerns. 
One is the details of the RFP itself, and the various 
provisions in it, which I think at this point we have fully 
discussed, and I believe we are over. As you know, I have 
drafted these kinds of things in my private sector as well as 
public sector lives, and I can assure you that we have drafted 
a request for proposals that is tight, protects the government 
interests, and I believe gives private sector interests a full 
opportunity to show what they could do with the building.
    The second concern has been a concern about the cost 
benefit of maintaining the building as federally occupied 
space, and putting it out on the market. And----
    Ms. Norton. No, no. That can't----
    Mr. Peck. And I can tell you that--I have a hunch you're 
going to say what we have been saying, which is that the 
legislation fully anticipates that that analysis will be 
submitted to the Congress, along with a negotiated lease from a 
private sector interest. That is what the legislation says.
    So, that analysis, in my opinion----
    Ms. Norton. You know that there is abundant room to put 
that two cents' worth of agencies in many places, and that was 
the excuse before.
    Mr. Peck. Well----
    Ms. Norton. Look, this building is losing the Federal 
Government $6 million annually. And you are telling us OMB is 
the problem? $6 million each year we lose because of what you 
have to put into the building, just to keep it going.
    Mr. Peck. But what I'm suggest is that I think the 
legislation was responsible, as it should have been, and said, 
``We will take a look at what the cost and benefits are when we 
have a private sector offerer who says, 'Here is how much money 
I will pay you for letting us use the building,' versus what it 
costs us to have--to continue Federal occupancy in the 
building.'' And that is an analysis which we have done in the 
past, we will do again when we get an offer.
    I am well aware of the opportunity to move the agencies in 
the building someplace else. We have talked to the agencies 
about that. And I am just telling you I am frustrated, I am 
working as diligently as I know how to get this RFP out.
    Ms. Norton. I think you should say to OMB that the 
committee expects the RFP on the street within 2 weeks, 14 days 
from today.
    Mr. Peck. We will be happy to carry that message back.
    Mr. Denham. Thank you, Ms. Norton. The chair yields five 
minutes to Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And also thank you to 
the ranking member. I think every day on this subcommittee we 
recognize that the ranking member probably, you know, is 
forgotten more than many of us will know in our service on this 
committee.
    Mr. Peck, I know that you will be heartbroken to know that 
I was almost delayed in another hearing. But I am glad to make 
it here.
    I want to ask you first, to follow up on the Parklawn 
situation--and I know that we're in that critical area where 
you really can't talk about things, but I guess I want to hear 
from you that you have some assurances that the processes in 
which you have engaged, and particularly of late with respect 
to that lease, will not result in litigation that will extend 
this process even further than it has gone on already.
    Mr. Peck. I--the assurance I can give you is that this 
thing has been vetted every which way until Monday inside the 
GSA in an attempt to make sure that we are abiding by what we 
said to the real estate and official and private--for that 
matter, the whole public--in this region about how we were 
going to make the selection on this procurement.
    I can't give you an assurance that someone won't litigate. 
Unfortunately, my experience in this is that on very large 
lease acquisitions like this one, there is almost always 
someone who is willing to take exception to what happened, if 
only because they are disappointed and think they may be able 
to change the decision.
    Ms. Edwards. Well, thank you very much.
    Mr. Peck. But I hope that doesn't happen.
    Ms. Edwards. I mean people--I understand, you know, 
obviously, you know, many of the participants, or some of them, 
somebody is going to be disappointed because they're not going 
to get the procurement. I think I just worry that this 
particular procurement has been so fraught with problems that 
it may result in a deep perception that there is a great 
unfairness, and that that unfairness has to be litigated. And I 
fear that we are going to sit here a year from now discussing 
the same thing. But I am going to go on.
    I want to ask you about an area that has been of great 
concern to me in my time on this committee, and it has to do 
with the lease rate disparities from Maryland to Northern 
Virginia to the District of Columbia, when it comes to leasing. 
I think many of us who live and work here think of this as a 
region, and we don't understand why these disparities exist 
that seem to favor one jurisdiction over another jurisdiction 
that has actually, I think, resulted, and in my view, as a lay 
person, a lot of, you know, concern about fairness of process 
when it comes to those sort of--the higher quality leases.
    So, I wonder if you can explain for the record what the 
reason is for the rent disparity. And then I would like you to 
go down several jurisdictions. Is there a rental rate disparity 
in Denver or New York City or Philadelphia or St. Louis or Los 
Angeles or San Diego or San Francisco or even Baltimore, in my 
own state, that is like the disparity that exists here in this 
region?
    Mr. Peck. There are not. We do not pre-set what we call 
program rates for any of those other metropolitan areas.
    Ms. Edwards. Only for this metropolitan area. And do you 
have any idea, historically or otherwise, what the reason is 
for that disparity?
    Mr. Peck. I have--I don't know why the program rates were 
set in the first place. I have been--I don't know for sure. I 
have been told that there was--obviously, in this area the 
Federal Government is a large lessee. And I believe there was--
may have been a sense at some point that the Federal 
Government, by setting rates which were presumably market rates 
in advance, or perhaps just below-market rates in advance, we 
could save taxpayer dollars by announcing to the real estate 
community that this is as high as we are prepared to go on 
rent, and no higher.
    Ms. Edwards. Well, I don't really get that, when there is a 
disparity in the region, when you set the high mark. But there 
is a disparity from Maryland to Virginia to the District of 
Columbia. It would seem to me that, especially for people who 
believe in the value of the marketplace, that, indeed, you have 
actually scripted and constrained the marketplace, in terms of 
competition. And I am concerned about that.
    I--you know, I know I'm just, you know, your average 
consumer. And so I live in Prince George's County, but 
sometimes I shop in Montgomery County. And other times I drive 
over to get a book in Northern Virginia. And I know my car 
doesn't make a distinction about where it is in the 
metropolitan area. And so I don't understand why GSA does. And 
if you can't explain why it does, and you can't find anything 
in your history that explains why it does, then we need to get 
rid of the disparity, don't you think?
    Mr. Peck. Let me make one point to clarify. But, in 
general, I think there are--one, I have to say you're no longer 
a lay person; I think you know as much about the real estate 
market as anyone, given what you've learned--the way you've 
delved into this.
    There are clearly different rental rates in different parts 
of the metropolitan area. In fact, I mean, one of the ironies 
of the program rates is one could argue there should be 50 
program rates, because there are probably that many real estate 
sub-markets. Not every place in Washington is at $49, which is 
our program rate. There are different parts of town, different 
parts of Prince George's, that have different rates. Closer to 
a Metro station will probably pay--you will pay a higher rate 
than you will someplace else. So, that reflects the market.
    However, you accurately describe what are concerns about 
setting these rates in advance, which is that you can constrain 
competition. I believe in some cases one can make the argument 
that, while the intention was to keep us from paying a higher 
rate, in some cases, the fact that we advertise in advance what 
we're prepared to pay, in some cases may even raise the rates. 
And then there are instances in which, as you and I have 
discussed, if we actually have to go out, and someone has to 
construct a new building to meet our requirements, there are 
times, such as now, in which the program rate may not give a 
landlord enough rent to be able to finance new construction.
    And so, there are a lot of problems with this. We are 
taking a look at--and I am hoping we can have some success in--
reforming this, so it either better does--so that it better 
reflects what a good market-based real estate strategy would 
do.
    Ms. Edwards. Well, the people of Prince George's and 
Montgomery County want to know, ``When is it our turn?'' And 
so, I know you have been looking at this for some time. These 
are questions that we have raised, and I have raised, the 
ranking member has raised repeatedly. And I think it's time to 
stop looking and to clear it up. If it doesn't exist for New 
York City, it doesn't exist for Los Angeles or Denver or St. 
Louis, then it shouldn't exist for the Washington Metropolitan 
Region.
    Thank you very much, and I yield, Mr. Chairman.
    Mr. Denham. Thank you, Ms. Edwards. Just a couple of 
follow-up questions.
    I certainly want the information about the DoT. That is 
something that came as a surprise to this committee. I 
certainly want to know whether we're using transportation 
funds, highway trust funds for buildings, instead of roads.
    As well, it came to our attention last night, when we got 
the prospectus, there is new leases in there. Could you explain 
and justify the lease request for DHS?
    Mr. Peck. Can I take a moment here?
    Mr. Denham. Sure.
    Mr. Peck. Is that a new lease request that we had not--you 
weren't aware of before? Do you know where that--what location?
    Mr. Denham. We stayed up all night going through it. 
Arizona, New York, and Texas in the new leases.
    Mr. Peck. Well, new to me, too. So I will--I understand 
it's part of an ICE collocation initiative, but I will have to 
provide you information for the record.
    Mr. Denham. Thank you. And, as well, we have had several 
discussions now--in greater detail today--on GSA's 
jurisdiction, the 1,500 properties that you oversee out of the 
1.2 million. As we are going through not only leases, which you 
have a greater percentage of, but also building investments, it 
seems like there is more that you don't know than what you know 
and control, which obviously provides some issues with this 
committee, as we are not only trying to provide valuable 
oversight in all of our procurement, but more importantly, in a 
time of crisis, we want to work to get rid of those surplus 
properties.
    If we are only looking at the 1,500, obviously, that is a 
very limited window. I understand the President's BRAC proposal 
will be coming out soon. As you know, we have also prepared our 
own BRAC bill. We look forward to working with you on both. But 
the concern that I have is that we don't have the oversight 
over all properties currently today, which leaves a huge area 
for mistake.
    Mr. Peck. Well, Mr. Chairman, we look forward to working 
with you on the legislation, too. And the intent of the 
legislation is to make--is to have jurisdiction over all of the 
properties in the United States for the purpose of making sure 
that they are still needed, and--or are available for excessing 
or surplusing out of the inventory.
    Mr. Denham. And it was at one time GSA's authority over all 
properties, wasn't it?
    Mr. Peck. Well, we still--I want to be clear. We still are 
the government's disposal agent. And so we do have something of 
a fishing license to go to other agencies and ask if their 
space is excess.
    With the President's memorandum last summer--and I think it 
would be only strengthened by legislation--we could go with a 
little bit more of a--a couple more arrows in our quiver, to 
make sure that we actually get good results.
    Mr. Denham. Thank you.
    Mr. Peck. Probably not fair to say. I shouldn't----
    Mr. Denham. Well, we are committed to working with you on 
this, as well as the administration, on their proposal. I will 
be providing you the legislation that I did on the state level. 
Our BRAC commission never moved forward in California, but we 
did consolidate all of our buyer power under GSA, which gave us 
a tremendous amount of oversight. There were a lot of 
departments that came kicking and screaming, and still would 
love to get out from under GSA, but it creates greater 
accountability, from everything from our vehicles, which we 
found thousands that were off the books, as well as properties.
    So that would be the same type of system. I would like to 
see either under a BRAC commission or separate from, but one 
way or another, we have got to get some greater accountability 
over what we own, what it's worth, the justification when we 
purchase a new property, and I think, most importantly, 
understanding the utilization rate, how many people are in each 
people, and can we do a better job.
    There are some--we understand there are some properties 
that are historic properties. The GSA building we may never get 
to a--it's one of those properties that has huge corridors and 
high ceilings, and you may never get to a current utilization 
rate. But we ought to have some type of formula for 
understanding that. And we look forward to moving forward with 
you on that.
    And before I close, I just want to reiterate. Over a month 
ago we did discuss a number of different issues which we still 
don't have clarified today. One of those, the project that Ms. 
Norton was just talking about, the Old Post Office, the RFP for 
that. We had expected to have that done by today. As well, a 
list of properties losing money on an annual basis in the 
national capital region. We did get your list of properties, 
but in that only had operating costs and not revenues.
    So, we would either like you to--have you present us a list 
of losing properties with an analysis behind those, or, at a 
minimum provide this committee with the revenue numbers so that 
we can figure it out ourselves.
    And then, finally, something that we talked about a great 
deal today, which you and I have both talked about in the past, 
is streamlining the process. We want to see a list of 
recommendations that, you know--obviously, we will work with 
our staff on recommendations on streamlining the process.
    And again, I would let you know that we do not plan on 
approving any leases. That will be the next thing that we are 
going to be working on. But we want to have this information 
first.
    Mr. Peck. Thank you, sir. We will get it to you.
    Mr. Denham. Thank you. Well, in conclusion, I would just 
like to thank you for your testimony today. Especially after 
yesterday's meetings, you know, I think that we are going to 
have a greater communication and openness. I am hopeful that 
all of the other departments that we have been having 
challenges with will not only work with you, but work with this 
committee, as well. We need some fast answers.
    I know the Administration is looking for that, as well. We 
want to work together and make sure that those answers are 
available for the public at large.
    And with that, if there are no further questions, I would 
ask unanimous consent that the record of today's hearing remain 
open until such time as our witness has provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that, during such time as the record remains 
open, additional comments offered by individuals or groups may 
be included in the record of today's hearing.
    [No response.]
    Mr. Denham. Without objection, so ordered. I would like to 
thank our witness again for testimony today. And if no other 
Members have anything to add, this subcommittee stands 
adjourned.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
